WAIVER

Supreme Court, U.S.
FILED

OCT 0 6 2020

Supreme Court of the United State

OFFICE OF THE CLERK

No. 20-5694
Marc Anthony Lowell Endsley
(Petitioner)

v.

California
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

-0

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member Of the Bar of the Supreme Court of the United States.
"vk I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be.filesi
r member.
Signature
Date:
(Type or print) Name

Der, ne vee /-1. de- &u
0 Mr.

Firm

CA/

Address

',zoo t

D

gclols.

El Mrs.

0 Miss

Otigh CC' ar—Nce of- -I he.. *Hort-) ey (7i.nereri
vree-i- urk. to a
D

& StateGr crarnee) 7f1, C
016 ) 07) - -7 eel 3
Phone

.94 - .1-537).

city

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Marc Anthony Lowell Endsley, Pro Se
California Supreme Court
California Court of Appeal, Fourth Appellate District
San Bernardino County Superior Court

RECEIVED
OCT - 9 2020
z:FtlaCtE OF THE CLERK
SUPREME COURT, U.S.

Obtain status of case on the docket. By phone at 202-47S-3034 or via the inttro
http://www.supremecourtua.gov. Have the Supreme Court docket number available.

DECLARATION OF SERVICE BY OVERNIGHT COURIER
Case Name:
Case No.:

In re Marc Anthony Lowell Endsley
5261655

I declare:
I am employed in the Office of the Attorney General, which is the office of a
member of the California State Bar, at which member's direction this service
is made. I am 18 years of age or older and not a party to this matter; my
business address is: 1300 I Street, Suite 125, P.O. Box 944255, Sacramento,
CA 94244-2550.
On October 6, 2020, I served the attached WAIVER by placing a true copy
thereof enclosed in a sealed envelope with FedEx Overnight, addressed as
follows:
The Honorable Gregory S. Tavill
San Bernardino Co. Superior Court
San Bernardino Justice Center
247 W. Third Street
Department S20
San Bernardino, CA. 92415

California Supreme Court
350 McAllister Street, Room 1295
San Francisco, CA 94102

Marc Anthony Endsley
Napa State Hospital
ID # NA212-360-2
2100 Napa-Vallejo Hwy.
Napa, CA 94558-6293

California Court bf Appeal, Fourth
Appellate District
Division Two
3389 Twelfth Street
Riverside, CA 92501,

I declare under penalty of perjury under the laws of the State of California
and the United States of America the foregoing is true and correct and that
this declaration was executed on October 6, 2020, at Sacramento, California.
Natalie Y. Quinonez
Declarant
SF2020950020

34463302.docx

(
Signature

"(41 yx7111-,

